HHS/OIG - Audit,"Review of Grant No. 90-EO-0057 ACF Discretionary Grant,"(A-07-01-01051)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Grant No. 90-EO-0057 ACF Discretionary Grant," (A-07-01-01051)
August 27, 2001
Complete
Text of Report is available in PDF format (489 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period September 30, 1997 through September 29, 2000, the Institute for
Social and Economic Development (ISED) received $450,000 to adminster a Job Opportunities
for Low-Income Individuals program.  Our objectives were to assess the achievement
of the grant objectives and to determine compliance with grant terms and conditions.  We
found that ISED did not fully meet the original grant objective of creating 120
full-time jobs.  ISED officials said their revised objectives were communicated
to ACF.